        NORTHEAST REGIONAL OFFICE
              Limited Audit of Financial and Administrative Controls


                                   INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and
administrative internal controls of the Northeast Regional Office (NERO). The
audit procedures were limited to analyzing representations made by NERO staff,
reviewing supporting documentation, and conducting some tests of transactions.
The purpose of the audit was to provide the Commission with negative assurance
that the internal controls were adequate, being implemented economically and
efficiently, and in compliance with Commission polices and procedures1.


                                    BACKGROUND
The Northeast Regional Office is located in New York City. Assisted by the Boston
and Philadelphia District Offices, it is responsible for administering Commission
programs, subject to Commission oversight, in the states of Connecticut, Delaware,
District of Columbia, Maine, Maryland, Massachusetts, New Hampshire, New
Jersey, New York, Pennsylvania, Rhode Island, Vermont, Virginia and West
Virginia. In carrying out its responsibilities, NERO exercises a broad range of
financial and administrative functions, including maintaining time and attendance
records; procuring supplies and services; arranging for staff travel; maintaining an
inventory of property; and recording budgeted and actual expenditures of the office.


                                   AUDIT RESULTS
During the limited audit described above, no material weaknesses in the internal
control structure involving NERO’ s financial and administrative functions came to
our attention. We did not review the internal controls surrounding information
technology because they will be reviewed as part of an upcoming audit of
information technology management controls at NERO. Some minor internal
control weaknesses were discussed with NERO management. NERO concurred with
these findings and is implementing our recommendations.
The audit was performed in accordance with generally accepted government
auditing standards from April 2004 to June 2004.



1
    Negative assurance means that no material internal control weaknesses came to our attention during our
    limited audit.
